<html>
<title> - STATE VOTER REGISTRATION LIST MAINTENANCE</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



               STATE VOTER REGISTRATION LIST MAINTENANCE

=======================================================================

                                HEARING

                               BEFORE THE

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 25, 2017

                               __________

      Printed for the use of the Committee on House Administration
      
      
      
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
      


                   Available via the World Wide Web:
   http://www.gpoaccess.gov/congress/house/administration/index.html
   
   
   
    
                                        ________
                          
                          U.S. GOVERNMENT PUBLISHING OFFICE
                   
31-446                            WASHINGTON: 2018

   
   
   
   
   
   
                   Committee on House Administration

                  GREGG HARPER, Mississippi, Chairman
RODNEY DAVIS,  Illinois, Vice        ROBERT A. BRADY, Pennsylvania,
    Chairman                           Ranking Member
BARBARA COMSTOCK, Virginia           ZOE LOFGREN, California
MARK WALKER, North Carolina          JAMIE RASKIN, Maryland
ADRIAN SMITH, Nebraska
BARRY LOUDERMILK, Georgia




 
               STATE VOTER REGISTRATION LIST MAINTENANCE

                              ----------                            


                      WEDNESDAY, OCTOBER 25, 2017

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The Committee met, pursuant to call, at 11:04 a.m., in room 
1310, Longworth House Office Building, Hon. Gregg Harper 
(Chairman of the Committee) presiding.
    Present: Representatives Harper, Davis, Comstock, 
Loudermilk, Brady, and Raskin.
    Staff Present: Sean Moran, Staff Director; Bob 
Sensenbrenner, General Counsel; Cole Felder, Deputy General 
Counsel; Dan Jarrell, Legislative Clerk; Erin McCracken, 
Communications Director; Jamie Fleet, Minority Staff Director; 
Khalil Abboud, Minority Deputy Staff Director; Tanya Sehgal, 
Minority Elections Counsel; and Eddie Flaherty, Minority Chief 
Clerk.
    The Chairman. I now call to order the Committee on House 
Administration for purposes of today's hearing on State voter 
registration list maintenance.
    The hearing record will remain open for 5 legislative days 
so Members may submit any materials they wish to include.
    A quorum is present, so we may proceed.
    I first would like to thank our witnesses for their 
appearance before the Committee. Today's hearing addresses an 
important subject both for our democracy and certainly for each 
of us as Members. We are each uniquely dependent on States 
conducting accurate elections every 2 years. The accuracy of 
our elections is the bedrock upon which all of our work in the 
people's House lies. Therefore, it is paramount that every 
election be conducted in a fair and open manner.
    To that end, today, we have asked our witnesses to testify 
on State voter registration list maintenance. Ensuring the 
accuracy of voter registration lists is the foundation to a 
successful election. Having accurate lists increases voter 
confidence, eases the administration of elections, reduces wait 
times, and certainly helps prevent voter fraud and 
irregularity. The Bauer-Ginsberg Commission, headed by Bob 
Bauer, former President Barack Obama's campaign counsel and 
later White House counsel, and Ben Ginsberg, former President 
George W. Bush's campaign counsel and Mitt Romney's campaign 
counsel, noted this in the report stating, and I quote: 
``Improving the accuracy of registration rolls, for example, 
can expand access, reduce administrative costs, prevent fraud 
and irregularity, and reduce polling place congestion leading 
to long lines.''
    Many times, the work accomplished by our State and local 
election officials goes unsung. However, their work on ensuring 
the accuracy of voter rolls can clear the way for a better 
voting experience. It could both drive more citizens out to the 
polls and reduce voter fraud and irregularities. Voter list 
maintenance is the most important homework that each State and 
local election official needs to do.
    Under our Constitution, it is the responsibility of the 
States to run elections. Congress can pass legislation to place 
mandates on States concerning the times, places, and manner of 
elections, which includes voter list maintenance requirements. 
Congress has enacted these requirements in the National Voter 
Registration Act, or NVRA, and the Help America Vote Act. But 
the implementation of these requirements lies with States, who 
have the ultimate responsibility for elections. Specifically, 
section 8 of the NVRA requires that States conduct a general 
program that makes reasonable efforts to remove the names of 
ineligible voters from the official lists. These laws were a 
product of legislative compromise, and each State has a 
responsibility to follow that law. The duties imposed by NVRA 
require critical functions in ensuring the accuracy and 
integrity of our elections.
    When States do fail to follow the law, problems arise. For 
example, it seems intuitive that States should not have more 
registered voters than citizens of voting age. However, the 
most recent election administration surveys indicate that eight 
States have such problems. Even if States are given the benefit 
of the doubt that these inaccuracies are caused simply by 
voters moving out of a State and not canceling their previous 
registration, confidence in the election process is shaken and 
confusion at the polls can run rampant.
    As we review these laws and others that impact State voter 
registration lists, it is important to remember that our 
country has changed from when NVRA was initially adopted in 
1993. Technology has changed. Many other things have taken 
place. There have been a number of profound changes over the 
years since the law was enacted, and it is worth examining the 
mandates of the NVRA and how States bring that law into effect.
    We must also recognize that the Federal Government is the 
partner of the States in list maintenance. We need to hear how 
the Federal Government can provide appropriate access of 
Federal databases to further their list maintenance efforts. 
For example, does the Social Security Death Index provide the 
appropriate information to States? How can the Federal 
Government improve the information sharing between States 
concerning residents while recognizing that States have already 
banned together and created programs to do so?
    These are some of the important issues that are essential 
to our democracy. And on these specific points that I have 
mentioned, I want to again thank Indiana's Secretary of State 
and President of the National Association of Secretaries of 
State, Connie Lawson, for her hard work on this issue and for 
agreeing to be here to testify. And I now recognize Ranking 
Member Brady for any opening statement he may wish to give.
    Mr. Brady. Thank you, Mr. Chairman.
    I want to thank you for calling this hearing. And I want to 
thank our witnesses for joining us today. I will have a longer 
statement for the record. So I will just make a few comments 
now. The National Voter Registration Act, or motor voter law, 
added an estimated 300 million new voters on the rolls. It was 
a commonsense idea: If you need to access a government service, 
you should be reminded to vote. It was that simple principle 
that inspired me to introduce the Automatic Voter Registration 
Act of 2017, which expanded the motor voter act.
    But we need to carefully maintain voter lists. In 
maintaining these lists, we need to have one principle: No one 
who has lawfully registered to vote should be kicked off the 
rolls to keep them from voting. For example, the Ohio Secretary 
of State was using a process of list maintenance that involved 
canceling registrations of individuals who had not voted since 
2008. That should not have happened. Again, I would like to 
thank the chairman for calling this hearing, and I look forward 
to the witnesses' testimony.
    The Chairman. Thank you, Mr. Brady.
    The Chair will now recognize Mr. Raskin for the purposes of 
an opening statement.
    Mr. Raskin. Mr. Chairman, thank you so much, and thanks for 
calling this really important hearing. I appreciate it.
    And thank you also to the Ranking Member, Mr. Brady, for 
his leadership on these election issues.
    You know, one of our great Presidents spoke of government 
of the people, by the people, and for the people. And I think 
that that beautiful tantalizing ideal expresses what we want to 
think of as democracy in America. Of course we didn't start 
that way. We started as a slave republic of white male property 
owners over the age of 21. The vast majority of people couldn't 
vote. And it has only been through political struggle and 
constitutional changes that we have opened America up to voting 
by everybody for the expression of popular will. So the 15th 
Amendment banned race discrimination in voting. The 14th 
Amendment established equal protection. The 19th Amendment gave 
women the right to vote. The 17th Amendment shifted the mode of 
election of U.S. Senators from the legislatures to the people. 
The 24th Amendment banned poll taxes in elections. The 26th 
Amendment lowered the voting age to 18. So we have opened 
democracy up to full participation by the people.
    But even when we have these formal constitutional changes, 
we know that there have been repeated efforts to nullify the 
vote with things like the literacy test, the poll tax, 
grandfather clauses, obstacles to registration, difficulties 
imposed on the path to voting and so on. So, on the one hand, 
nothing is more American than the ideal of one person, one vote 
that was articulated in Reynolds v. Sims, Harper v. Virginia 
Board of Elections, a series of cases that established the 
right of everybody to vote. On the other hand, we also know 
that it is pretty American to see impulses or the impulse 
expressed in different places to disenfranchise people through 
behind-the-scenes political manipulation dressed up as 
bureaucratic extremism. And in our times, we have seen a lot of 
people disenfranchised through governmental efforts that were 
later discredited and found to be completely illegitimate.
    I think a lot about the contested Presidential election 
that took place in Florida in 2000, where the Secretary of 
State, Katherine Harris, ordered a purge of the voter rolls to 
get rid of people who might be convicted felons and contracted 
out for more than a million dollars to a private party to do 
that.
    And there was a memo written back to her saying: Well, we 
are getting some near matches, but the middle names are 
different. They are not quite right. There is a junior in one 
place, not in another.
    And she wrote back: Cast a wide net.
    And it came out in hearings after the election took place 
that more than 17,000 people were unlawfully denied the right 
to vote in Florida there. And we have seen lots of cases like 
that, where there have been efforts to disenfranchise 
populations, often targeted in minority communities, through 
bureaucratic efforts that are later determined to be imperfect.
    So, when I think about this, Mr. Chairman, I think a lot 
about William Blackstone's famous comment that, in a free 
society, it is better that 10 guilty persons escape punishment 
than 1 innocent person be sent to prison. And I think about 
voting. You know, is it better to disenfranchise a thousand 
people who are legitimate bona fide voters in order to get one 
person whose name may have appeared in the same place in two 
different jurisdictions and might decide to engage in the 
ludicrous activity of trying to commit voter fraud by voting in 
two different places, which we know is extremely rare?
    So I just want to make sure, as we go about this, I totally 
agree with you that we want accuracy, we want integrity in the 
voting process, but we don't want a voting process that 
actually works against the interests of the voters. So I will 
be very interested to hear what our witnesses have to say about 
that. And I welcome them today. Thank you. I yield back.
    The Chairman. The gentleman yields back.
    I would now like to introduce our witnesses for today. 
Connie Lawson serves as Indiana's 61st secretary of state. She 
has served in that capacity since 2012. Prior to her service as 
secretary of state, she served for 16 years in the Indiana 
Senate, where she was the first woman to serve as majority 
floor leader. Before joining the Indiana Senate, she served as 
the clerk of the Hendricks County Circuit Court. Secretary 
Lawson currently serves as the President of NASS, the National 
Association of Secretaries of State. She is also an Honorary 
Governor of the Richard Lugar Public Service Series, an 
Honorary Chairwoman of the Lupus Foundation of Indiana, and Co-
Chair of the Hendricks County United Way.
    Dale Ho is the Director of the ACLU's Voting Rights Project 
and supervises the ACLU's voting rights litigation and advocacy 
work nationwide. His current cases include Husted v. A. Philip 
Randolph Institute, a voter list maintenance case pending 
before the U.S. Supreme Court. Dale is also an adjunct 
professor of law at NYU School of Law and Brooklyn Law School. 
He is a graduate of Yale Law School and Princeton University.
    The Committee has received your written testimony. You will 
each have 5 minutes to offer and present a summary of that 
submission. As you know, to help you keep the time, you see the 
lights on the desk. So it will be green for 4 minutes, yellow 
for the last minute, and when time is expired, it will run red. 
So that would mean it is time to bring it in for a landing at 
that point.
    The Chair now recognizes Secretary Lawson for the purposes 
of her opening statement for 5 minutes. Welcome.

STATEMENTS OF THE HONORABLE CONNIE LAWSON, INDIANA SECRETARY OF 
STATE; AND DALE HO, DIRECTOR OF VOTING RIGHTS PROJECT, AMERICAN 
                     CIVIL LIBERTIES UNION

            STATEMENT OF THE HONORABLE CONNIE LAWSON

    Ms. Lawson. Well, good morning, Chairman Harper, Vice 
Chairman Davis, and Ranking Member Brady. I am very honored to 
be here with you this morning and to address you.
    Voter list maintenance is needed because approximately 24 
million, or one out of every eight, voter registrations in the 
United States are no longer valid or are significantly 
inaccurate according to the 2012 study by the Pew Center. The 
National Voter Registration Act of 1993 requires the removal of 
inaccurate voter registration records but with multiple 
safeguards to protect voters. In most cases, before a 
registration record may be canceled, the record must be 
identified as showing an inaccurate current address for the 
voter. Only after two Federal elections have taken place, up to 
4 years, and only if the voter has not confirmed during those 4 
years that the record is in fact accurate can the voter 
registration record be canceled, as required by this Federal 
law. Simple failure to vote never causes a registration record 
to be canceled. Cancellation only occurs if the registration 
contains inaccurate information which indicates that the voter 
is no longer qualified to vote at that address.
    Local election administrators in Indiana's 92 counties, who 
are most familiar with their voters and communities, perform 
voter list maintenance daily by updating information on voters 
who have moved, died, or requested that their registration be 
canceled. However, many counties do not have the money to do 
the periodic and uniform mailings that are required by Federal 
law. Thus, the State has taken the lead. This process begins 
when the State mails all Indiana voters a postcard. Some are 
returned due to an unknown or insufficient address. The State 
mails these voters a second forwardable postcard, asking the 
voter to provide us with updated information. If the voter 
responds, their county updates their information and no further 
action is needed. If they do not respond to either mailing, 
their record is marked inactive. Once a record is marked 
inactive, it is not removed from the list unless the voter 
misses the next two Federal elections or otherwise fails to 
confirm their address is in fact correct. The voter is still 
eligible to vote during this 4-year period. If the voter casts 
a ballot from that address during any election in that 4-year 
period, the primary, the general, or the special, their record 
is automatically returned to an active status.
    In 2014, Indiana undertook voter list maintenance using the 
statewide mailing process. Inactive registrations remained on 
the rolls for 2014, 2015, 2016. Records that were still 
inactive at the end of that period were canceled in 2017. As of 
today, 481,235 voter registrations have been canceled through 
this process. Voter list maintenance reduces election costs. 
Counties with bloated voter rolls are forced to spend more 
money to purchase extra equipment, secure additional locations, 
and pay for election workers. Allowing invalid registrations to 
remain on the rolls distorts the reality of actual voter 
participation and turnout. In 2016, the official voter turnout 
in Indiana was 58 percent of all registered voters, despite a 
record number of voters turning out to vote. If the voter list 
maintenance conducted this year, in 2017, had taken place 
before the 2016 election, Indiana's turnout would have been 
about 65 percent.
    Voter list maintenance also boosts voter confidence in our 
election system. I often hear from poll workers and county 
officials that voters are disturbed by seeing the name of a 
deceased family member or neighbor still on the list years 
after death or moving away.
    As I close, I want to address the uncertainty that clouds 
voter list maintenance across the country. In States that are 
attempting to comply with Federal law, like Indiana, activist 
groups are suing to keep maintenance from being done. In States 
that are not participating, activist groups are suing to force 
the process. Performing voter list maintenance is the law, 
according to the NVRA. This law was a compromise that required 
voter registrations to be available at government offices, such 
as the BMV, and voter list maintenance to be performed. We 
enforce the registration portion of the law uniformly but not 
the voter list maintenance piece. So I encourage Congress to 
clarify this expectation for the States, and I congratulate and 
commend the efforts of State officials around the country who 
are continuing to work hard in the face of this uncertainty.
    The last piece I want to include is that our office does 
participate in the Interstate Crosscheck Program to assist 
voter list maintenance, and I am happy to explain how this 
works in Indiana if need be. Thank you again for the 
opportunity.
    [The statement of Ms. Lawson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Secretary Lawson.
    The Chair will now recognize Mr. Ho for 5 minutes for the 
purposes of an opening statement. Welcome.

                      STATEMENT OF DALE HO

    Mr. Ho. Thank you, Chairman Harper, Ranking Member Brady, 
and Members of this Committee. Thank you for holding this 
hearing and for the opportunity to testify today.
    The right to vote is the cornerstone of our democracy. And 
we at the ACLU seek to protect it on equal terms for all 
Americans. But you can't vote if you are not on the rolls. And 
voter list accuracy therefore requires ensuring that eligible 
voters are able to get on the lists, that they are not 
erroneously purged, and that thinning the rolls only occurs 
when people are or become ineligible to vote.
    Unfortunately, as described in my written testimony and as 
was referenced by Ranking Member Brady and Congressman Raskin, 
erroneous list maintenance efforts in States like Florida, 
Ohio, and Texas have wrongfully targeted thousands of vote 
voters for removal from the rolls. In one incident in Madison 
County, Mississippi, 10,000 voters were illegally purged just 
days before an election, including David Landrum, a Republican 
candidate for what is now Chairman Harper's district. Just 
yesterday, my home city of New York acknowledged wrongfully 
purging about 114,000 voters in advance of last year's 
Presidential primary. So this problem is not limited to any 
region or party.
    Our registration systems should of course be modernized to 
better account for people who move. And that is why 10 States, 
most recently Representative Davis' home State of Illinois, on 
a bipartisan basis, adopted a system of automatic registration, 
which ensures that unregistered voters are registered and 
updates rolls when voters move. It is an innovation that both 
maintains accuracy and helps voters participate without 
unnecessary bureaucratic hurdles.
    Now Secretary Lawson has referenced the Interstate Voter 
Registration Crosscheck system, which purports to compare voter 
rolls in multiple States. And with due respect to the 
secretary, we advise against Crosscheck, which a team of 
researchers at Stanford, Harvard, UPenn, and Microsoft found 
misidentify supposed double voters more than 99 percent of the 
time. Crosscheck's user manual itself states, quote, ``A 
significant number of apparent double votes are false 
positives.'' And, therefore, States, including Florida, Oregon, 
and Washington, have dropped out of the program all together.
    We sometimes also hear suggestions to compare State voters 
rolls to the Department of Homeland Security's Systematic Alien 
Verification for Entitlements, or SAVE, database. But citing 
concerns about accuracy, courts have struck down list 
maintenance efforts involving SAVE in States like Iowa and 
Florida, where bad matching protocols led the State of Florida 
to mistakenly designate thousands of Americans as noncitizens, 
including Bill Internicola, a Brooklyn born World War II 
veteran who had fought at the Battle of the Bulge. Now, as you 
know, on June 28, the Department of Justice requested 
information on list maintenance from 44 States, a sweeping 
inquiry that Vanita Gupta, former head of DOJ's Civil Rights 
Division and now president of the Leadership Conference on 
Civil Rights, has described as, quote, ``virtually 
unprecedented.''
    The timing of this request is also suspect, coming on the 
same day as an infamous demand by the Presidential Commission 
on Election Integrity for all 50 States' voter rolls. 
Stockpiling huge amounts voters' personal data in this manner 
raises significant cybersecurity concerns. The Commission's 
plans have been described as a, quote, ``hacker's gold mine'' 
by cybersecurity experts. And this week, it was reported that 
passwords for Crosscheck have been disseminated via email to 
dozens of people at a time, a risky practice that could permit 
unauthorized access to voter data from 30 States. Given that 
dozens of States' registration systems were victims of 
attempted cyber attacks last year, these plans are risky at 
best.
    But I want to emphasize that, as Secretary Lawson said at a 
Senate Intelligence Committee hearing last year, there is no 
indication that vote counting was manipulated last year. And as 
Representative Walker stated last year, there are cases from 
time to time that need to be investigated, but there is, quote, 
no mass conspiracy of voter fraud going on. Although we face 
threats, our elections are secure.
    Now, unfortunately, we as Americans increasingly seem to 
refuse to accept the basic legitimacy of our political 
opponents on the assumption that their electoral support must 
be the result of fraud. Suggestions along these lines, like the 
President's false statement that millions of illegal votes cost 
him the popular vote, do a disservice to men and women who have 
risked their lives for our democracy, people like my 
grandfather, Raymundo Sena Estacion, and other Filipino 
veterans who, as we speak during this hearing, are being 
awarded the Congressional Gold Medal in Emancipation Hall for 
their service in World War II.
    I, therefore, urge this Committee to facilitate 
participation by encouraging States to adopt systems that 
automatically update voters' registration information along the 
lines of Ranking Member Brady's bill, to reject plans that 
purge eligible voters from the rolls, to help ensure that votes 
are counted accurately by supporting State efforts to enhance 
cybersecurity systems. Our democracy is more vibrant and more 
truly representative when more Americans participate. Thank 
you.
    [The statement of Mr. Ho follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. I want to thank each of you for your 
testimony and for starting this hearing on what we know is a 
very essential and important subject. And I want to again thank 
you both for taking the time to be here.
    We now have the opportunity for our Committee Members to 
ask each of you questions. Each member is allotted 5 minutes to 
question the witnesses. To help us keep track of our time, we 
have got the same lights in front of us--that you can't see--to 
keep us on track.
    And I will now recognize myself for 5 minutes for the 
purposes of asking those questions. If I could, Mr. Ho, just to 
kind of follow up on the Mississippi example that you gave from 
Madison County, Mississippi, most of which is in my district, 
some in Congressman Thompson's district, and it is my 
understanding of course that approximately 10,000 voters were 
purged from the rolls about 2 weeks before the election. But to 
clear that up, I want to commend our secretary of state, 
Delbert Hosemann, whose staff worked well and very hard to make 
sure that was corrected. And it was corrected in time for the 
election. So there was no impact because it was detected. Is 
that correct?
    Mr. Ho. That is my understanding as well, that Secretary 
Hosemann understood that this was an illegal purge because it 
was being conducted----
    The Chairman. Within 90 days.
    Mr. Ho. Exactly. And that his staff worked overtime to make 
sure that those voters were restored to the rolls. So it is a 
testament to the hard work of his office that no voters were 
disenfranchised as a result of that illegal purge.
    The Chairman. That is something we certainly commend his 
staff. And they continue to do a great job of making sure we do 
those things. Secretary Lawson, in your experience, what impact 
would you say that inaccurate voter registration lists might 
have on the lines at polling locations? That seems to be the 
big story a lot of times on why people walk away, is maybe the 
lines are too lengthy.
    Ms. Lawson. Well, I think it can make a difference. 
Obviously, we want to make sure that the voters that show up to 
vote are able to vote. But I think what it does more than 
increase the time to vote, it increases the process time. So it 
is the time that the poll workers have to process someone when 
we have an inaccurate list to help that person with an 
individual request. That is where the lines get longer.
    The Chairman. When you are discussing coming up with how to 
make sure the list--and look, I understand a voter list is 
never going to be 100 percent accurate. We get that. There is 
always going to be things that happen and take place. But what 
impact would accurate voter registration lists have on the 
costs of your administering elections?
    Ms. Lawson. Well, you know, counties have to send to each 
voting location the correct number of machines, supplies, 
ballots, have the right amount of poll workers. And all of that 
costs money. So, if the lists are inflated, it can make a 
difference. But I think because of the light of all of the 
things we have heard about election security and integrity, 
what it probably does as well is that it takes away money that 
could be spent by local election jurisdictions on security and 
integrity of our elections.
    The Chairman. I know that when we are looking at the law--
and title 52, section 21083(a)(3), says the appropriate State 
or local office shall provide adequate technological security 
measures to prevent the unauthorized access to the computerized 
lists established under this section. So we are not only 
discussing getting to an accurate list but also the protection 
of that and cybersecurity threats. Are you satisfied that those 
measures are being taken and followed in your State?
    Ms. Lawson. Regarding cybersecurity?
    The Chairman. Yes.
    Ms. Lawson. I think, across the country, secretaries are 
spending hours every day on cybersecurity. And there are a 
number of activities going on. My legislature has been 
supportive, luckily, in Indiana for us to take a number of 
steps to improve our election security.
    The Chairman. And I am sure that that is a major topic when 
you have your meetings for the National Association of 
Secretaries of State.
    Ms. Lawson. That is correct. The national association has a 
number of meetings. We have developed our own cybersecurity 
task force. We are a member of the Government Coordinating 
Council for DHS to make sure that we do everything we can to 
increase the security of our elections.
    The Chairman. Explain to us what is Indiana's voter list 
maintenance policy and who is responsible for it.
    Ms. Lawson. Well, in Indiana, it is a bipartisan effort. We 
have our Indiana Election Division, where we have a bipartisan 
attorney and director. It is also--it is the counties that make 
the decision whether or not a voter's records should be 
removed. And that is a bipartisan county election board as 
well. And then the actual Indiana General Assembly appropriates 
the money, and those are bipartisan votes as well, so that we 
can afford, the State can do that mailing on behalf of the 
counties.
    The Chairman. Those bipartisan election boards or election 
commissioners, whatever they may be in various States, that is 
probably the most thankless job that is out there. And so, for 
the record, I want to thank all the hardworking people that do 
make sure that they do their best effort on that. That is a lot 
of work. So thank you each for your answers.
    The Chair will now recognize Mr. Brady for 5 minutes.
    Mr. Brady. Thank you, Mr. Chairman.
    As I said earlier, I have introduced the automatic voter 
registration bill for the last few Congresses. The Brennan 
Center estimated my proposal could add 50 million voters to the 
rolls. Could both of you comment on this idea generally?
    Ladies first.
    Ms. Lawson. Indiana does not have automatic voter 
registration, but we have done a number of things over the 
years to increase access. For an example, our 
Indianavoters.com, we have an outward facing online voter 
registration. Voters do get asked at the BMV, at our Bureau of 
Motor Vehicles we call it, if they want to register to vote. We 
just passed some laws that increased that participation with 
our BMV. And I am not--I apologize, Mr. Brady. I have not been 
aware of your bill.
    Mr. Brady. That is okay. A lot of people haven't been.
    Mr. Ho.
    Mr. Ho. If I may. And thank you, Ranking Member Brady, for 
introducing that legislation. We are generally supportive of 
the idea of automatic registration. We think this is a way to 
accomplish both the goals of making sure that the registration 
lists are accurate and as up-to-date as possible while at the 
same time increasing access and facilitating participation for 
more Americans. Ten States have adopted some form of automatic 
registration. This includes States that are sometimes called 
red, sometimes called blue, States like Alaska, West Virginia, 
and, as I mentioned in my opening remarks, most recently, 
Illinois, signed into law by a Republican Governor. So we think 
it is a good idea. We think it is very important that those 
systems have adequate safeguards to ensure that people who are 
ineligible to vote don't become automatically registered. That 
doesn't do good for either elections or for those people 
themselves. But as long as those safeguards are built in, we 
think these systems are generally a good idea.
    Mr. Brady. How would such a proposal fit into proper list 
maintenance so that tragedies like what happened in Ohio will 
not happen again?
    Mr. Ho. Well, if you had a situation like that, then 
programs like Ohio's, the one that you referenced in your 
remarks, and which we at the ACLU have been litigating, that 
case is set to go to the Supreme Court 2 weeks from today, 
programs like Ohio's would be unnecessary. I mean, Ohio is a 
really extreme outlier. They treat a person, if you do not vote 
in a 2-year period, they treat that as evidence that you may 
have moved and, not just moved, but moved out of the country--I 
am sorry, out of the county or out of the State and become 
ineligible on that basis. Now, in our midterm elections, 
typically more than half of registered voters don't 
participate. So that is an awfully heroic assumption on the 
part of the State of Ohio. And, fortunately, the U.S. Court of 
Appeals for the Sixth Circuit agreed with us last year, and 
7,500 people were able to vote as a result of the ruling we 
got.
    But if you had an automatic system that updated people's 
registration statuses when they interacted with the State, then 
maybe overzealous programs like Ohio's would no longer be 
necessary.
    Mr. Brady. Thank you.
    Madam Secretary, all my bill does is expand motor voter. 
Social Security offices, food stamp offices, city and State 
agencies. That gives the people an opportunity to let them know 
that they can--check a box and they can get a registration and 
vote automatically right there. It just allows more people to 
participate in our democratic system. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Brady yields back.
    The Chair now recognizes Mr. Davis, the vice chairman of 
the Committee.
    Mr. Davis. Thank you, Chairman.
    Madam Secretary, first, just a quick question. We hear a 
lot in elections about voter turnout. Do accurate voter 
registration lists help you as a Secretary of State depict 
better turnout models?
    Ms. Lawson. Well, as I mentioned in my opening remarks, I 
believe it does. Indiana did voter list maintenance starting in 
2014, but we weren't able to complete it until after the 2016 
general election cycle. The maintenance that we did this year 
would have actually given us a 65-percent turnout rather than a 
58-percent turnout. And I think that encourages the voters to 
be a part of the group of people who are active voters and do 
turn out to vote.
    Mr. Davis. Thank you very much.
    You know, as Mr. Ho mentioned, my home State of Illinois 
just implemented automatic voter registration. We have had 
motor voter. Now I want to ask you about sharing that 
information between States. A resident of Illinois moves to 
Indiana. Do your two States or do all States, effectively, 
share this information with the DMV to ensure that those 
individuals aren't registered in both States?
    Ms. Lawson. It is my understanding that it is really and 
truly the information that the voter gives. So I believe that 
every State will ask, what is your previous address? And if the 
voter states that correctly, then that State is notified. But 
if the voter doesn't give the information, the States don't get 
it. They can't share it.
    Mr. Davis. Mr. Ho, how many counties do you think 
nationwide maybe have more than 100 percent registered on their 
voter rolls?
    Mr. Ho. I don't have the specific number in front of me, 
Representative Davis. But I think what I should note is that 
sometimes assertions about there being more registered voters 
than total population or adult population in a particular 
county are exaggerations. PolitiFact, for instance, looked at 
an assertion by the Public Interest Legal Foundation that Bryan 
County, Georgia----
    Mr. Davis. Actually, if I could, I want to stick to the 
numbers. Do you have any estimate of how many counties you 
think would reach that, regardless of whether or not having 
more than a hundred percent--we can have that debate later, but 
I don't have enough time. I mean, I have got a report or a 
letter here from the American Civil Rights Union that says 200 
counties, over 200 counties nationwide. That doesn't sound like 
much when you look at our country, right? But I have got from 
the Illinois State Board of Elections that 24 of 102 counties 
in my home State have more than 100 percent registered in their 
county, more so than their population that is eligible to vote. 
So, with that being said, and especially now that we have 
automatic voter registration, I mean what would you recommend 
our States do, our State Board of Elections in Illinois, 
Secretary of State in Indiana, and others, to make sure that no 
one is eligible to vote in two jurisdictions and therefore 
can't do some of the things that we have seen voters 
unfortunately do in the past? A prime example of misusing 
voting privileges would have been one of the previous 
secretaries of state in the State of Indiana. So, obviously, I 
think we need to be better prepared. So what do you recommend 
we do?
    Mr. Ho. I guess I would say three things to that, 
Representative Davis. The first is just to take a step back and 
look at what those numbers actually signify. So, when you say 
that there are more voters in a jurisdiction than people, a lot 
of times those counts include people who are designated as 
inactive registrants, which means they are in the process of 
being removed from the rolls. So PolitiFact, for instance, 
rated a claim that Bryan County, Georgia, had more registered 
voters than adults as false, and gave it that inaccurate 
rating.
    But the second thing I would say is, in principle, there is 
nothing wrong with the idea of sharing information across State 
lines. You just have to make sure that the underlying data is 
accurate and that your matching protocols don't generate false 
positives. And, unfortunately, the Crosscheck system, which we 
hear referenced frequently, suffers from flaws in both of those 
regards.
    Mr. Davis. Do you think this hundred percent, more than 100 
percent voter registration in certain counties, regardless of 
the justification--is it Bryan County, Georgia? Is that what 
you said?
    Mr. Ho. Yes.
    Mr. Davis. Is that your district, Barry?
    Mr. Loudermilk. No, it is not.
    Mr. Davis. Regardless of that, I mean, don't you think the 
negative stories impact voter confidence? Wouldn't it be better 
to be able to say, ``Hey, we have got 65 percent turnout, this 
is record turnout in the State of Indiana,'' because in the 
end, don't we all want everyone who is eligible to vote to 
vote?
    Mr. Ho. Of course we want as much turnout as possible. Our 
democracy is better off when more Americans----
    Mr. Davis. Absolutely. Absolutely. I guess what I don't get 
is, how can we work together to make sure that we put better 
systems in place, especially with the institution of automatic 
voter registration in my home State, what can we do to work 
together just to make it better so that we know everybody who 
is eligible to vote can and those who are not can't do it more 
than once?
    Mr. Ho. Well, I would agree with you that we need to make 
our voter registration systems more accurate and more modern. 
And I think the automatic system that you have just adopted in 
Illinois, I mean, it has just been signed into law, so it 
hasn't had the opportunity to go to work yet. I think that is a 
very good first step towards making progress in that area.
    Mr. Davis. I look forward to working with you and the ACLU 
in making sure that we implement standards while this new 
process is being put in place to ensure that they are the most 
accurate voter rolls. So thank you very much. I yield back.
    The Chairman. The gentleman yields back.
    The Chair will now recognize Mr. Raskin for 5 minutes for 
the purposes of asking questions.
    Mr. Raskin. Mr. Chairman, thank you so much.
    And thank you both for your fine testimony.
    Mr. Ho, you testified that there was this study done by 
researchers at Stanford and UPenn and some other universities 
and Microsoft, which found that the Crosscheck Program, which 
is being used by a lot of States, would eliminate about 200 
voter registrations used to cast legitimate votes for every one 
registration used to cast a double vote. Can you explain why 
that is the case? And then I have got a followup on that.
    Mr. Ho. Sure. I am not an expert myself in computer 
database matching efforts, but my understanding is that the 
Crosscheck system, the criteria that are employed for matching 
people are very loose. So, for instance, Crosscheck treats 
people as a match when their first name, last name, and date of 
birth are matches. But even when there is other information in 
the States' records, say a middle name, a Social Security 
number that does not match and that indicates that we are in 
fact not talking about the same person.
    Mr. Raskin. Okay. And that mirrors what I was talking about 
happened in Florida, and I remember it being scandalized by the 
wide net that was cast to purge legitimate voters from the 
rolls. Do you want to say anything about the potential for the 
disproportionate effect of that on minority communities? 
Because I saw some Census data which shows that minorities are 
overrepresented in 85 of the 100 most common last names where 
we are most likely to have confusion. So, if your name is 
Washington, there is an 89-percent chance that you are African 
American. If your last name is Hernandez, there is a 94-percent 
chance you are a Hispanic. If your last name is Kim, there is a 
95-percent chance you are Asian. So what is the effect in those 
communities if you cast a wide net and it is enough to have a 
birthday and a first and last name match as opposed to adding 
in Social Security information, addresses, and so on?
    Mr. Ho. What you referenced is my understanding as well, 
that when you have loose matching criteria amongst State voter 
lists to try to identify potential double registrants, you end 
up with false positives that disproportionately affect 
communities of color.
    Mr. Raskin. Got you. Okay.
    And so, Madam Secretary, let me ask you: Back to the 
initial kind of philosophical puzzle I started with, how many 
legitimate voters is it worth disenfranchising to catch one 
actual double registration in two different States?
    Ms. Lawson. I don't think we want to take anyone off the 
rolls that shouldn't be off the rolls that doesn't have an 
inaccurate record.
    I will tell you, as regards to the Crosscheck program that 
Indiana participates, we developed a software program where we 
have a confidence level. So, if the first name and the last 
name matches, that is 30, 15 points, 15 points. If the middle 
name is exactly the same, that is another number of points. And 
until it reaches 75 percent or 75 points of confidence, our 
bipartisan county election boards don't even get the 
information. And, ultimately, they are the ones that are----
    Mr. Raskin. Can you give me the other point scorings that 
you have there? So how much is it for first name and last name 
and middle name?
    Ms. Lawson. There are a number. We use first name. We use 
last name. We use middle name, obviously. A suffix. Whether it 
is an initial for the middle name only. I can't remember 
exactly how many points, but I can certainly provide it to you 
after this testimony.
    Mr. Raskin. Okay.
    Ms. Lawson. I think I have that information. But it is 
driver's license number. It is Social Security number.
    Mr. Raskin. Let me just see if I can understand it. This is 
complicated stuff. If I find on one list, say, a Connie 
Meredith Lawson and I find on another list a Connie Julia 
Lawson, one way of doing it would say, ``Well, the middle names 
don't match; we will keep that person on the rolls.'' But you 
are saying I could continue to accumulate points that would 
disqualify that person?
    Ms. Lawson. No. If the middle name doesn't match, I don't 
believe that would reach that level.
    Mr. Raskin. Even if you had the other requisite number of 
points?
    Ms. Lawson. Yes, yes.
    Mr. Raskin. So, in other words, you get to that number of 
points and then there are certain disqualifying irreconcilable 
information that would then remove that from the potential of a 
purge?
    Ms. Lawson. I can tell you if it doesn't reach a 75-point 
confidence level, it doesn't even go to the county officials. 
They never see it. We worked with a statistician who told us 
that the way we were doing our work, that I would have a better 
chance of winning the lottery than the counties removing the 
wrong person the way we were doing our confidence.
    Mr. Raskin. Okay. We definitely need to get to the bottom 
of that because that is clearly contrary to that finding by 
those other researchers who said, in 99 percent of the cases, 
under a Crosscheck disqualification system, you are going to 
get false positives. But you are saying reaching the 75 points 
in Indiana is necessary, but it is not sufficient for removal 
from the rolls?
    Ms. Lawson. That is correct.
    Mr. Raskin. Okay. Could you provide us more detailed 
information on precisely the point scoring system you have?
    Ms. Lawson. Absolutely.
    Mr. Raskin. And is that the system that is used in all of 
the jurisdictions?
    Ms. Lawson. That is what we use in Indiana. I can't answer 
for the other States.
    Mr. Raskin. Was that something that was provided by 
Crosscheck or that was something that you guys came up with?
    Ms. Lawson. That is something that we developed, sir.
    Mr. Raskin. In the Secretary of State's office?
    Ms. Lawson. Yes. Well, the Election Division, our 
bipartisan Election Division.
    Mr. Raskin. Okay. Very good.
    Mr. Chairman, I yield back. Thank you.
    The Chairman. The gentleman yields back.
    The Chair will now recognize the gentlelady from Virginia, 
Mrs. Comstock, for 5 minutes.
    Mrs. Comstock. Thank you. I appreciate the hearing topic. 
And I know, you know, a lot of times we have anecdotes and 
things and people make statements, you know, publicly about 
false voting and all, but I wanted to bring a specific case to 
mind because it was something that happened in my very own 
precinct. We had two voters who moved from my precinct in 2011, 
late 2011 or so, early 2012, and moved from Virginia to 
Maryland. And 2012 was a Presidential election. Maryland was 
not going to be a swing State or a competitive State; Virginia 
was. These people came back, and they registered to vote at a 
friend's house on the same street. Now, as it happened, a woman 
on the same street also was an election officer in 2012. So, 
when she got the election rolls and saw that the couple, who 
she knew, because it had been a neighbor for years, was now 
registered at a new house on the street that she knew they were 
not living in, because she lived on the street and knew that 
was somebody else's house, she looked at that and said: Well, 
this is strange.
    They moved out of say--I am making up the number--but she 
moved out of 100 Smith Street and came back and registered to 
105 Smith Street. And the election officer happened to live on 
110 Smith Street and knew they weren't living there. So, when 
she went to be the election officer on election day and this 
couple came in, she said: Hey, you don't live here. Why are you 
coming in to vote?
    And they said: Oh, no, we are homeless. We are living at 
Jeff's house, and we are still looking for a house.
    So they ended up being allowed to vote because you 
challenged them, and they didn't even have to vote in a 
contested vote. They got to vote because they had their 
election card because they had gone and fraudulently registered 
to vote at this other person's house, even though they had 
their residence in Maryland.
    So Virginia has elections every year. So, before the 2013 
race came about, people in the neighborhood, because there were 
other people who knew this had happened, got information 
showing that they had gone--there was a newcomer newsletter in 
Maryland. They were living in Annapolis. They weren't living on 
the street. Numerous people on the street said: They are not 
living here.
    Some stories got written up about it. This was all brought 
to the attention of the election board in our county, who then 
wrote up this fraudulent report and sent it to the prosecutors, 
who declined to prosecute.
    So I guess I would ask you both, now, because this got so 
much attention, because these letters were publicized, because 
these letters were written, and because they were identified by 
name by numerous neighbors on the street, as well as by the 
person whose house they were living in who was a local Democrat 
activist, they did not show up to vote in 2013, which, given I 
was on the ballot, I was very appreciative of that. But what 
laws on the books or not on the books could--how do we get that 
type of case to not--I guess maybe I will direct it to Mr. Ho. 
What would you say we should do in that case? Because I think 
it was a pretty clear case of fraud. They weren't living on 
that street or in that neighborhood anymore, yet they were 
allowed to vote in 2012. And I was in the House of Delegates at 
that time. That district came out exactly tied between Obama 
and Romney. So, then, in 2013, it wasn't exactly tied; I had--
you know, but it was a close election. So we are talking about 
a lot of close elections here, which is why they obviously 
wanted to vote here. What do you think we should do in those 
types of cases? And when you had a prosecutor who just wouldn't 
prosecute, what could we do to correct that?
    Mr. Ho. Thank you for the question, Representative 
Comstock. So I am not an expert in law enforcement. I am not 
familiar with the details of that case and why the prosecutor 
in that case declined to bring charges. It may very well be the 
case that whatever evidence was adduced was insufficient to 
meet the standards for probable cause for an indictment. I 
guess I would say this, is that no one is denying that there 
aren't cases from time to time that merit investigation and 
prosecution, as Representative Walker, who is not with us right 
now, has said.
    But what we don't have is a substantial pattern of evidence 
of widespread fraud. We do have evidence that overenthusiastic 
purges have removed legitimate voters from the rolls. And I 
guess what I would say is that, when we are trying to balance 
these concerns, let's go where the evidence leads us. Let's 
make decisions based on that evidence and do a cost-benefit 
analysis here. And if we have evidence that these purges are 
overzealous, maybe we shouldn't be talking about doing more 
purging. Maybe we should be talking about doing less and more 
accurate purging.
    Mrs. Comstock. Or maybe more prosecution in terms of 
looking at that. Would that help in terms so that you are not 
purging as much as you are saying--you know, having more 
information available. Because we didn't have the Maryland 
rolls available. Actually, we were able, you know, people were 
able to look into that and see they hadn't yet registered in 
Maryland, because obviously they wanted to continue to vote in 
Virginia because there were closer elections in Virginia. So I 
think there is clearly a problem here. And I can tell you 
people kept coming to us saying: You know, they can't show up 
to vote.
    I mean, you can imagine the neighbors who were sitting 
there watching them, their frustration of just having them 
bald-facedly lie to them about living on their street when they 
didn't. It is beyond anecdote. And so I think wherever we can 
highlight real fraud and make sure there is a response to it, 
it would be helpful.
    The Chairman. The gentlelady yields back.
    The Chair will now recognize gentleman from Georgia, Mr. 
Loudermilk, for 5 minutes.
    Mr. Loudermilk. Thank you, Mr. Chairman.
    I thank both of the witnesses for being here today. 
Secretary Lawson, first of all, thank you for your service. I 
know that sometimes that can be a thankless job, especially 
when you are dealing in the voters and voter registration and 
especially with the myriad of laws and regulations and 
procedures. And we often don't make it easy on you to do your 
job.
    Let me ask you a quick question. Do you know or do you 
believe that there is duplicativeness between voter rolls in 
various States, for instance that there are people registered 
in one State and they are registered in another State?
    Ms. Lawson. I am sure that is the case, sir. You know, it 
is not--voters don't think about changing or canceling their 
voter registration in one State when they move to another, and 
it is certainly not against the law to be registered in more 
than one State. But it is against the law to vote in more than 
one State. And so, yes, I am sure that is the case.
    Mr. Loudermilk. Okay.
    Mr. Ho, do you know that there are duplicativeness between 
States in their voter rolls?
    Mr. Ho. I mean, news reports came out I think after the 
election that various members of the President's, for example, 
Cabinet and inner circle, like Treasury Secretary Mnuchin, 
former adviser Steve Bannon, former press secretary Sean Spicer 
were all registered to vote in more than one State last year. 
But no one accused them of fraud or anyone committing any kind 
of fraudulent activity in their names.
    Mr. Loudermilk. So you take that news report as valid that 
they are--I mean, you are referencing a news report as a 
statement that you do believe that this is the case?
    Mr. Ho. I don't have any reason to doubt the veracity of 
the report.
    Mr. Loudermilk. Okay. You kind of dispelled other news 
reports as invalid, and I just want to make sure that you are 
not trying to justify a particular end. I am living in a world 
of reality. Let me share with you this, and I have some other 
questions. I particularly know of three people that were 
registered in three different States simultaneously. They 
didn't know that they should cancel. That is not their 
responsibility. I think it is the responsibility of the States. 
So I asked one of them, because they work construction, they 
traveled, and a lot of times you live, and if you are doing a 
project that lasts for a year, you will move there, and you 
will live in Virginia for a year. Then you will move to Florida 
for a year. Then you go home to your home State of Texas for a 
while or whatever. And I asked one of them: With an election 
coming up, are you going to go home in time for the election?
    They said: I am just going to vote right here.
    I said: Oh, did you change your residency?
    He said: No, I just registered to vote in this State.
    I said: So did you cancel your registration?
    No, I actually voted in the municipal election back in my 
home State when I was there a few months ago.
    Now, this is somebody who is actually registered in three 
different States and, out of convenience, is just going to go 
vote from whatever State that they live in. So I know for a 
fact in at least three instances, and I am sure if, in my small 
group of folks that I know, that people would tell me, that 
that there has got to be multiple individuals that fall in that 
category.
    Now, I do have issues with this automatic registration. I 
had issues with motor voter when it was put in because I come 
from an IT background. And there is one thing in the 
information technology arena, a rule we live by: If you don't 
have the data, you don't have to protect it. And we live in an 
age right now--I just came out of a hearing in Science and 
Technology where it is suspected that Russia is using a U.S. 
company to mine American intelligence information off personal 
computers. We live in a very dangerous world. And automatic 
voter registration that is going to register somebody who may 
not even know they were registered to vote, may not even know 
that their information is out there on a database, and who may 
never ever exercise their right to vote really puts those 
people at risk. I think voting is a responsibility, and you 
need to make an effort to go vote. Now, that was my statement 
for the day.
    A question to Ms. Lawson. Are there mandates in the NVRA 
that make it difficult for secretaries such as yourself to run 
an effective list maintenance program?
    Ms. Lawson. I believe that the requirement to mail two 
mailings to an individual is an impediment. As I mentioned, our 
counties couldn't afford to do it themselves as required by 
law. So the State took that over. It might be nice if there was 
just one mailing that was required, and it would be a 
forwardable postcard with that.
    There are other things that we could take advantage of, the 
States, if we were allowed to. I think my State takes advantage 
of some tools that the Federal Government gives us. We do the 
STEVE, State and Territorial Exchange of Vital Events. In case 
somebody who lives on the border of our State goes to Kentucky 
and dies in a hospital there, we get that information. We get 
the EVE information. But there is other information that the 
Federal Government could give us that would help us.
    Mr. Loudermilk. Mr. Chairman, can I have another 30 seconds 
to follow up?
    The Chairman. Yes, sir.
    Mr. Loudermilk. So we do know that there are times that we 
do need to remove somebody from a database. In fact, I think it 
is the responsibility for that person's personal information 
security that we do that. Knowing that there could be mistakes 
made, what safeguards does Indiana have to make sure their 
voters do not have their voter registration inaccurately 
canceled? And if a voter is in an inactive status, can they 
still cast a provisional ballot?
    Ms. Lawson. I appreciate the question. And the answer is, 
if the voter status is inactive when they show up to the polls, 
it is transparent to them and to the poll worker. So they are 
allowed to vote if they are in the inactive status.
    If they have been removed and because they didn't respond 
to the two mail pieces and they didn't vote and they were 
removed, but they decided in 2016 that they wanted to show up 
and vote, according to NVRA, all they have to do is give an 
oral affirmation that they have never moved from that address 
and they are allowed to vote a regular ballot, not a 
provisional ballot.
    Mr. Loudermilk. Okay. Thank you, Madam Secretary.
    And, Mr. Chairman, I yield back the time that I have 
exceeded.
    The Chairman. The gentleman yields back.
    As a followup on that real quick, if they are not on the 
inactive but they say that ``I am supposed to be able to vote 
here,'' do they still cast a provisional ballot and then the 
election board reviews that to see if it should be counted or 
not, or are they just escorted out?
    Ms. Lawson. It depends on the circumstances, but I know, in 
Indiana, the instructions that we give is that no voter is to 
be turned away. If their name is removed through a voter list 
maintenance effort and it should not have been, they can make 
an oral affirmation and still vote. If it is for some other 
reason that they are not there, they can vote provisionally, 
and that gives then the county 10 days to deal with that issue.
    The Chairman. Great.
    Thank both of you for being here. This is certainly a very 
vital subject. And your insight is much appreciated.
    Without objection, all Members will have 5 legislative days 
to submit to the chair additional written questions for the 
witnesses, which we will forward and ask the witnesses to 
respond as promptly as they can so that their answers may be 
made a part of the record.
    Without objection, this hearing is adjourned.
    [Whereupon, at 12:02 p.m., the Committee was adjourned.]


                             <all>
</pre></body></html>
